     Audit Report



Mail Volume Measurement
for City Delivery Carriers –
  Greater Indiana District



 Report Number DR-AR-11-005
         June 29, 2011
                                                                         June 29, 2011

                                                      Mail Volume Measurement for
                                            City Delivery Carriers – Greater Indiana
                                                                             District

                                                       Report Number DR-AR-11-005


IMPACT ON:                                  Operations Information System (DOIS)
This audit addresses operational risk.      cased mail volume data for these
                                            delivery units may result in management
WHY OIG DID THE AUDIT:                      making incorrect daily operational
Our objective was to evaluate the           decisions.
Greater Indiana District’s management
of city delivery mail volume internal       WHAT OIG RECOMMENDED:
controls for measuring, recording, and      The OIG recommended the Greater
reporting procedures. This report is in     Indiana District manager require district
response to a request from the district     officials to monitor mail volume on a
manager concerning inflated recorded        daily basis to ensure the timely update
cased mail volume data in associate         of DOIS and develop processes at the
post offices.                               unit level to reconcile the daily mail
WHAT OIG FOUND:                             volume counts with DOIS and mitigate
We found a majority of the unit officials   keypunch errors.
properly measured the mail, but
discrepancies in data recording and mail    WHAT MANAGEMENT SAID:
volume reporting existed in six of the      Greater Indiana District officials agreed
seven locations. We found data              with the findings and recommendations
discrepancies due to inadequate district    and initiated corrective action to verify
oversight as well as the lack of            the accuracy of mail volumes recorded.
reconciliation processes. Therefore,
management’s reliance on the Delivery       Link to review the entire report
.
June 29, 2011

MEMORANDUM FOR:           EDWARD L. SMITH
                          DISTRICT MANAGER, GREATER INDIANA DISTRICT

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Mail Volume Measurement for City Delivery
                          Carriers – Greater Indiana District
                          (Report Number DR-AR-11-005)

This report presents the results of our audit of mail volume measurement for city
delivery carriers in the Greater Indiana District (Project Number 11XG008DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Dean J. Granholm
    Elizabeth A. Schaefer
    Philip F. Knoll
    Jo Ann Feindt
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mail Volume Measurement and Count Procedures ......................................................... 1

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Management’s Comments .......................................................................... 7
Mail Volume Measurement for City Delivery Carriers –                                                       DR-AR-11-005
 Greater Indiana District


Introduction

This report presents the results of our audit of mail volume measurement for city
delivery carriers in the Greater Indiana District (Project Number 11XG008DR000). Our
objective was to evaluate the Greater Indiana District’s management of city delivery mail
volume internal controls for measuring, recording, and reporting procedures in selected
unit locations. This report is in response to a request from the district manager
concerning inflated recorded cased 1 mail volume data in associate post offices. This
audit addresses operational risk. See Appendix A for additional information about this
audit.

The accuracy of mail volume measurement is important for the U.S. Postal Service, as it
is central to effectively planning and executing city delivery workload. The Postal
Service established national policies and procedures to ensure accurate volume
measuring, recording, and reporting. Greater Indiana District officials are responsible for
measuring and recording daily mail volume, training employees, and following
established procedures to ensure consistency and data integrity.

Conclusion

We found a majority of the unit officials properly measured the mail, but data recording
and reporting mail volume discrepancies existed in six of the seven locations. We found
data discrepancies due to inadequate district oversight as well as the lack of
reconciliation processes. Therefore, management’s reliance on the Delivery Operations
Information System (DOIS) cased mail volume data for these delivery units may result
in management making incorrect daily operational decisions.

Mail Volume Measurement and Count Procedures

We found that a majority of the unit officials properly measured the mail using an
approved measuring device while compressing the mailpieces. 2 Although we did not
perform an independent verification of the accuracy of the measurements recorded, our
limited spot-check reviews disclosed no discrepancies. However, our review at six of
seven selected units 3 found overstatements of 25,576 mailpieces (11,706 letters and
13,870 flats) and understatements of 5,723 mailpieces (890 letters and 4,833 flats)
reported in DOIS for city delivery routes. Table 1 provides a breakdown of data
recording discrepancies reported in DOIS by delivery unit over a 1-day observation
period.


1
  Cased mail volume consists of letter and flat mailpieces manually sorted by delivery carriers into their line of travel.
2
  Approved measuring devices include rulers, adhesive rulers on the casing ledge, flat tubs, and letter trays. Five of
the unit supervisors properly measured the mail. For the remaining two locations, we observed instances where
carriers withdrew mailpieces from distribution cases and took the volume to their unit supervisor’s desk for
measurement via visual observation versus the mail being measured in the staged area with an approved device.
3
  We conducted a 1-day physical observation of the morning delivery operation at each unit.
                                                           1
Mail Volume Measurement for City Delivery Carriers –                                                   DR-AR-11-005
 Greater Indiana District



        Table 1. Summary of Linear Mail Volume Recording Differences for the Observation Day
                                   Total Linear              Difference in
                                      Letter                     Letter        Total Linear             Difference in
                                     Volume     Total Linear   Volume          Flat Volume Total Linear Flat Volume
                                   Recorded on Letter Volume Recorded on       Recorded on Flat Volume Recorded on
                          Total      Manual     Reported in the Manual           Manual     Reported in the Manual
     Delivery Unit       Routes       Form         DOIS          Form             Form        DOIS          Form
Nora Branch               54          4,341         7,484          3,143         29,696       38,542        8,846
Carmel Post Office        33          1,546         9,261          7,715         21,628       22,937        1,309
Circle City Station       46          8,558         9,406           848          14,357       11,464        (2,893)
Eagle Creek Station       38          2,133         2,133            0           6,772        10,487        3,715
Park Fletcher Branch      33          2,661         2,149          (512)         6,457        5,660          (797)
Eastgate Station          31          2,273         1,895          (378)         3,526        2,383         (1,143)
Greenfield Post Office    11          2,822         2,822            0           4,276        4,276            0

                                Total Overstatements         11,706      Total Overstatements               13,870
                                Total Understatements         (890)      Total Understatements              (4,833)
Source: DOIS and U.S. Postal Service Office of Inspector General (OIG) Analysis


In addition, our review of available DOIS reports and manual recording forms for
November 2010 and January 2011 revealed instances where officials:

   Documented 29 letter mailpieces when manually recording the cased mail volume,
    but input and reported 3,504 letter mailpieces in DOIS – a discrepancy of 3,475
    letter mailpieces.

   Input 605 additional delivery point sequence (DPS) letter mailpieces in DOIS — a
    total of 50,056 pieces – when the Web End-of-Run (EOR) report showed 49,451
    pieces for that day. 4

Data discrepancies occurred because Greater Indiana District officials monitor cased
mail volumes weekly rather than daily, which does not allow for timely correction of
errors in DOIS. 5 They told us they performed a high-level comparison of current
volumes to the previous year’s totals 6 to detect volume inflation and recording errors.
Also, unit officials did not have a process for reconciling the mail volume recording
counts to the data put into DOIS. They also did not have a process to mitigate keypunch
errors. With recording discrepancies and incorrectly reported volume data, Greater
Indiana District management cannot always rely on DOIS data 7 to effectively manage
daily operations and control costs.


4
  This occurred on January 5, 2011.
5
  Mail volume errors reported in DOIS must be corrected within 1 business day, per the information system controls.
6
  Same Period Last Year (SPLY).
7
  DOIS volume data is used by delivery supervisors to match carriers work hours to the workload (volume), make
operational decisions such as analyzing trends and budgeting and forecasting. We plan to perform a future
nationwide audit on mail volume measuring, recording, and reporting.




                                                         2
Mail Volume Measurement for City Delivery Carriers –                           DR-AR-11-005
 Greater Indiana District



Recommendations

We recommend the Greater Indiana District manager:

1. Require district officials to monitor mail volume on a daily basis to ensure the timely
   update of DOIS.

2. Develop processes at the unit level to reconcile daily mail volume counts with DOIS
   and mitigate keypunch errors.

Management’s Comments

Management agreed with the findings and recommendations. Regarding
recommendation 1, management has initiated the review process to require district
officials to monitor mail volume on a daily basis to ensure the timely update of DOIS.
The Delivery Programs staff will use the DOIS volume report to identify offices whose
variance to plan and/or SPLY information suggests a possible volume recording
concern and take corrective action, as necessary.

Regarding recommendation 2, management stated they have developed processes at
the unit level to reconcile daily mail volume counts with DOIS and mitigate keypunch
errors. Specifically, each week Delivery Programs officials will conduct random volume
checks and contact the district office for questions or concerns as needed. These
offices will be provided volume recording and volume error correction job aids to
document changes. The manager of Post Office Operations will provide additional
volume recording training and support when required by or requested by postmasters
and station managers. In subsequent discussions, management informed us that they
initiated these corrective actions on June 7, 2011. See Appendix B for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                                       3
Mail Volume Measurement for City Delivery Carriers –                                                 DR-AR-11-005
 Greater Indiana District


                                   Appendix A: Additional Information

Background

The Postal Service established national policies and procedures to ensure accurate
mail volume measuring and recording in delivery units, which is central to effectively
managing workhours to workload. Greater Indiana District officials must ensure they
train employees responsible for daily mail volume measuring and those employees
understand and follow instructions for consistency and data integrity.
Non-linear 8 letter and flat mailpieces are individually counted by mail processing
equipment. The results are recorded in the EOR report, which is electronically uploaded
into DOIS. Employees put linear, 9 or manual, letter and flat mailpieces in designated
areas and measure them separately using an approved measuring device 10 while
compressing the pieces (see Illustration 1). Results are rounded to the nearest
quarter−foot increment 11 and recorded in the Data Collection Device (DCD), which
electronically uploads the keypunched totals into DOIS. When a DCD is not available in
non-DOIS units, employees record manual volumes on Postal Service Form 3921,
Volume Recording Worksheet, and manually enter it into DOIS.
                           Illustration 1. Measurement of Linear or Manual Mail




        Quarter Foot




                                                                12
                                                 Source: OIG



8
  Non-linear volume includes automated letter mail sorted in DPS and automated letter and flat mail sorted to the
route level. Mail volume sorted to the route level is cased by the carriers and is included in the total cased mail
volumes in DOIS.
9
  Linear mail requires manual handling and casing in the delivery unit.
10
   Approved measuring devices include rulers, adhesive rulers on the casing ledge, flat tubs, and letter trays.
11
   The Postal Service Piece Count Recording System Management Instruction dated July 2007 provides the national
conversion rates per foot for letters and flats. A foot of manual letter mail converts to 227 pieces (57 pieces per
quarter foot) and a foot of flat mail converts to115 pieces (29 pieces per quarter foot).
12
   We plan to perform a future nationwide audit on mail volume procedures to include reviewing policies on rounding
and converting measurements to quarter foot increments.


                                                         4
Mail Volume Measurement for City Delivery Carriers –                                            DR-AR-11-005
 Greater Indiana District


Management uses DOIS information to effectively plan and execute workhours based
on the day’s recorded volume. DOIS daily data retention provides historical information
that various levels of personnel within the Postal Service use for tasks such as budget
forecasting, staffing, and scheduling. The accumulation of data provides management
with historical trend information they can compare with current and forecasted mail
volume. Management benefits by using the data to forecast periods of exceptionally
high or low mail volume to assist in employee scheduling in relation to predicted
variations of workload.

Total cased mail volume 13 in the Greater Indiana District decreased by 9 percent from
fiscal year (FY) 2009 to 2010, which included a decrease of 13 percent in cased letters
and 8 percent in cased flats. Also, total workhours decreased by 4 percent and overtime
hours increased by less than 1 percent. 14

Objective, Scope, and Methodology

The audit objective was to evaluate the Greater Indiana District’s management of mail
volume internal controls for measuring, recording, and reporting procedures in selected
unit locations. This review is in response to a request from the district manager
regarding his concern over inflated recorded cased mail volume data in associate post
offices. To accomplish our objective, we:

    Reviewed Postal Service applicable mail volume measuring, reporting, and
     recording policies and procedures to identify current governing requirements and
     initiatives.

    Reviewed and analyzed Greater Indiana District city delivery mail volume data from
     eFlash including total volume, cased letters, and flat volumes for FYs 2009 and 2010
     to identify trends in mail volume workload.

    Reviewed and analyzed workhour data from the Enterprise Data Warehouse (EDW)
     to identify trends in city delivery workhours.

    We performed a risk assessment using mail volume and workhour data trends to
     stratify the Greater Indiana District delivery units according to risks.

    We judgmentally selected seven units from the high-risk area that included the



    We conducted site visits and physical observations of mail volume measuring,
     recording, and reporting processes in December 2010 at the seven selected units.
     We also reviewed historical mail volume recording data for November 2010 and

13
  Total cased volume decreased from 444,911,898 to 402,942,583.
14
  Total workhours decreased from 6,166,661 to 5,906,025 and overtime workhours increased from 597,613 to
597,958.


                                                       5
Mail Volume Measurement for City Delivery Carriers –                                    DR-AR-11-005
 Greater Indiana District


     January 2011. Although we did not perform an independent verification to determine
     the accuracy of the measurements recorded, our limited spot-check reviews
     disclosed no discrepancies; therefore, we relied on the measurement totals
     recorded.

    We analyzed mail volume data from EOR and DOIS to identify reporting
     discrepancies and potential deflated/inflated volumes. We interviewed Postal
     Service officials to identify root causes for the discrepancies.

We conducted this performance audit from November 2010 through June 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on May 18, 2011, and included
their comments where appropriate.
We extracted data from eFlash, DOIS, EOR, and EDW. We did not test controls over
these systems; however, we checked the reasonableness of results by confirming our
analysis and results with management and other data sources. We determined the data
was sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                             Final
                         Report             Report         Monetary
    Report Title         Number              Date           Impact              Report Results
Management of         DR-AR-08-005         7/30/2008       $13,312,834   We concluded that, while the
Delivery Point                                                           Postal Service has established
Sequencing                                                               processes including oversight
Percentage                                                               controls to increase city delivery
Increases for                                                            DPS percentages and reduce
City Delivery –                                                          operating costs, the delivery
Southeast Area                                                           unit officials did not always
Atlanta District                                                         implement established
                                                                         processes for reporting
                                                                         late-arriving mail, handling non-
                                                                         DPS mail, and measuring mail
                                                                         volume.




                                                       6
Mail Volume Measurement for City Delivery Carriers –           DR-AR-11-005
 Greater Indiana District




                           Appendix B: Management’s Comments




                                                       7
Mail Volume Measurement for City Delivery Carriers –       DR-AR-11-005
 Greater Indiana District




                                                       8
